      Department of Homeland Security




    U.S. Coast Guard’s Management Letter for FY 2011
       DHS Consolidated Financial Statements Audit




OIG-12-58                                       March 2012

                                                             Office oIll1sl'ector Gel1/'ml

                                                             u.s. Department of Home1and Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                            MAR 14 2012

                                              Preface

The Department of Homeland Security (DRS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act (~f 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This rcport presents the U.S. Coast Guard's Management Letter for FY 201 t DHS
Consolidated Financial Statements Audit. It contains observations related to internal
controls that were not required to be reported in Lhe financial statements audit report. The
independent public accounting firm KPMG LLP (KPMG) performed the integrated audit
of DRS' FY 2011 financial statements and internal control over financial reporting and
prepared this management letter. KPMG is responsible for the attached management
letter dated February 03, 2012 and the conclusions expressed in it. We do not express
opinions on DHS' financial statements or internal control or provide conclusions on
compliance with laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security U.S. Coast Guard
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The U.S. Coast Guard (Coast Guard) is a component of DHS. We noted certain matters, related to
the Coast Guard that are summarized in the Table of Financial Management Comments on the
following pages, involving internal control and other operational matters that are less severe than a
material weakness or a significant deficiency, and consequently are reported separately to the
Office of Inspector General (OIG) and the Coast Guard management in this letter. These
comments and recommendations, all of which have been discussed with the appropriate members
of management, are intended to improve internal control or result in other operating efficiencies.
The disposition of each internal control deficiency identified during our FY 2011 audit – as either
reported in our Independent Auditors’ Report, or herein – is presented in Appendix A. The

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B. Our findings related to information technology systems security have been presented in a
separate letter to the OIG and the Coast Guard Chief Financial Officer and Chief Information
Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ and the Coast Guard’s management, the
DHS Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress,
and the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.


Very truly yours,
                                       U.S. Coast Guard
                           Table of Financial Management Comments
                                      September 30, 2011

             TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment

Reference   Subject                                                                      Page(s)


FMC 11-01   Financial Management Oversight                                                  2
FMC 11-02   Accrued Payroll and Unfunded Leave Accrual                                      2
FMC 11-03   Financial Disclosure Reports                                                    3
FMC 11-04   Operating Materials and Supplies                                               3-4
FMC 11-05   Human Resources Compliance with Laws and Regulations                            4
FMC 11-06   Actuarial Medical Liabilities                                                  4-5




                                          APPENDIX

Appendix    Subject                                                                       Page

   A        Crosswalk – Financial Management Comments to Active Notices of Finding and     6-7
            Recommendation (NFRs)
   B        Status of Prior Year NFRs                                                      8-9




                                                 1

                                          U.S. Coast Guard
                                  Financial Management Comments
                                        September 30, 2011


FMC 11-01 – Financial Management Oversight (NFR No. USCG 11-03)

      While U.S. Coast Guard (Coast Guard or USCG) financial management oversight exists and
      remediation efforts related to entity-level controls continue, weaknesses in the entity-level control
      structure continue to affect Coast Guard financial management as follows:

      Based on our September 30, 2011 testwork, we noted that the Coast Guard has not fully
      implemented an internal control environment that supports the philosophy and operating style,
      commitment to competence, organizational structure, human resources policies and practices, and
      integrity and ethical values. Specifically:
      •	 The Coast Guard has not developed adequate controls to track and monitor whether the
          training and continued education courses have been completed by civilian employees to
          ensure maintenance and improvement of their competencies for their jobs.
      •	 The Coast Guard has not developed adequate controls to track whether all employees receive
          the Standards of Ethical Conduct upon entry into the USCG. Specifically, USCG was unable
          to provide evidence to support that Standards of Ethical Conduct was received and reviewed
          within the first 90 days of duty for eight out of eight civilian employees hired during October
          1, 2010 through December 31, 2010.
      •	 The Coast Guard has not developed adequate controls to support employee’s awareness of the
          existence of the DHS Office of Inspector General (OIG) Hotline for reporting information on
          waste, fraud, abuse, and corruption in the workplace to the OIG. Specifically, three out of 10
          employees were not aware of the existence of the DHS OIG Hotline through inquiries
          performed.

      Recommendations:
      We recommend that the Coast Guard:
      •	 Develop a new system to track and monitor whether training and continued education courses
         have been completed by civilian employees to ensure maintenance and improvement of their
         competencies for their jobs.
      •	 Develop a new system to track and document whether new civilian employees complete
         initial ethics training.
      •	 Develop a new system to raise awareness of the DHS OIG Hotline for reporting information
         on waste, fraud, abuse, and corruption in the workplace to the OIG.

FMC 11-02 – Accrued Payroll and Unfunded Leave Accrual (NFR No. USCG 11-10)

      We noted that the Coast Guard does not perform a timely reconciliation of annual leave
      discrepancies identified between payroll related systems.

      Recommendations:
      We recommend that the Coast Guard:
      •	 Accelerate the rollout of electronic timekeeping to encompass all employees.
      •	 Re-direct staff as available to reconcile differences in civilian employee leave balances
         between payroll related systems.
      •	 Establish a more robust procedure for comparing civilian employee leave balances in payroll
         related systems each pay period and reconciling the differences in a timely manner.



                                                   2

                                           U.S. Coast Guard
                                   Financial Management Comments
                                         September 30, 2011


FMC 11-03 – Financial Disclosure Reports (NFR No. USCG 11-13)

       We noted that the Coast Guard had not developed adequate controls to track and monitor the
       filing and review of the Confidential Financial Disclosure Report (CFDRs), including document
       retention for the investigation of any violation and corrective actions taken to ensure compliance.

       We selected a sample of 15 CFDRs from the 2011 filed CFDRs and noted the following
       exceptions where the CFDR filing process was not properly followed. Specifically:
       •	 One CFDR was reviewed after the 60 day reviewing period.
       •	 One CFDR was signed by the employee after the date CG-0944 received the form.
       •	 Two CFDR filers did not properly complete all sections required for reporting transactions
           which could represent a potential conflict of interest.

       We noted the Coast Guard has not developed adequate controls to track and monitor compliance
       with the Coast Guard code of conduct – Standards of Ethical Conduct, including evidence of
       compliance with ethics training requirements.

       While the Coast Guard maintained a centralized list of positions required to file a CFDR, we
       noted the Coast Guard does not maintain a centralized list of employees required to file a CFDR
       and attend ethical training to monitor compliance with CFDR filing and training requirements.
       Further, we noted the Coast Guard does not have procedures in place to ensure the completeness
       or accuracy of the list of individuals required to file CFDRs or Public Financial Disclosure Report
       (PFDRs).

       Recommendation:
       We recommend that Coast Guard evaluate and strengthen its internal controls related to CFDR
       and PFDR filings before December to ensure full compliance with all CFDR and PFDR program
       rules.

FMC 11-04 – Operating Materials and Supplies (NFR No. USCG 11-16)

       We noted gaps in policies and procedures that prevent consistent implemented control procedures
       between Aviation Logistics Center (ALC) and Coast Guard Air Stations. Inconsistent document
       retention requirements, and non-standardized forms, can increase the risk of control deficiencies.
       More specifically,
       •	 ALC could not provide source documentation for eight out of the 15 selected issuances
           between October 1, 2010 to June 30, 2011.
       •	 Source documentation for two out of 15 receipts could not be provided because the
           information was not properly retained by Coast Guard Air Stations.




                                                    3

                                          U.S. Coast Guard
                                  Financial Management Comments
                                        September 30, 2011


       During our substantive testing procedures, we noted the following:

      As of June 30, 2011:
      •	 The ALC inventory system calculates the weighted average pricing for intragovernmental
         related purchases using the price at which the asset is ordered and not the amount actually
         paid. As a result, we noted two known errors of approximately $30 and a projected error of
         $341,312.

      September 30, 2011:
      •	 Similar to June 30, 2011 findings, we noted that for one sample, the incorrect purchase price
         was used to calculate the weighted average pricing. As a result, we noted a known
         overstatement of $123 and a projected overstatement of $58,248.
      •	 We noted that the quantity on hand for one sample was incorrect as of September 30, 2011,
         causing a $12,607 known understatement and a projected understatement of $198,599.

       Recommendations:
       We recommend that Coast Guard:
       •	 Closely monitor the implementation of existing Coast Guard requirements to insure
          compliance at Coast Guard Air Stations.
       •	 Conduct an analysis of the impact and materiality of using ordered price instead of actual
          price paid in the calculation of weighted average pricing.

USCG – FMC 11-05 – Human Resources Compliance with Laws and Regulations (NFR No. USCG
11-20)

       While performing compliance testwork related to Thrift Savings Plan (TSP) elections, we noted
       the Coast Guard was unable to provide the TSP-1 (TSP election form) for one employee.
       Additionally, we noted the information provided to evidence the employee’s most current TSP
       election indicated a contribution amount of $200 per pay period while the employee’s TSP
       contribution made in pay period 12 was $449. As such, we were unable to verify that the
       appropriate deduction for the employee was taken in pay period 12.

       Recommendation:
       We recommend that Coast Guard implement a review process to compare employee TSP
       elections to the documented TSP deduction being used by the payroll service provider and
       reported on the employees’ leave and earnings statements.

USCG – FMC 11-06 – Actuarial Medical Liabilities (NFR No. USCG 11-24)

       During FY 2011, the Coast Guard continued to implement internal control and substantive
       procedures over medical payment information associated with direct care medical claims. While
       reviewing the sampling plan implemented to test direct care data, we noted the following related
       to its design and implementation:
       •	 Selecting only one line per invoice page and only two pages from each invoice may be
            insufficient for large volume invoices (i.e., invoices with many pages and pages with many
            lines).



                                                   4

                                   U.S. Coast Guard
                           Financial Management Comments
                                 September 30, 2011


•	 The single stage projection methodology applied by the Coast Guard to project errors does
   not match the sample design. It may be more appropriate for errors to be projected through
   each stage of the sample, eliminating the need to artificially cap error rates.

Recommendations:
We recommend that Coast Guard:
•	 Consider the direct care test results from FY 2010 and FY 2011 as well as the conditions
   above to update the sampling plan for FY 2012.
•	 Consider eliminating the state of sampling requiring a page number to be randomly selected
   from a paper invoice patient category and then a line item to be randomly selected from the
   page.
•	 Consider the use of electronic reconciliations of the paper invoice patient categories to
   directly sample line items.




                                           5

                                                                                      Appendix A
                                       U.S. Coast Guard
                  Crosswalk - Financial Management Comments to Active NFRs
                                      September 30, 2011


                                                                       Disposition1
                                                                       IAR              FMC
NFR No.                               Description                 MW   SD       NC       No.
 11-01    Environmental Liabilities                               D
 11-02    Heritage Assets                                         C
 11-03    Financial Management Oversight                                                11-01
 11-04    Statement of Net Cost                                   A
 11-05    Fund Balance with Treasury (FBWT) Reconciliations            G
 11-06    Cumulative Results of Operations                        A
 11-07    UDOs                                                    E
 11-08    Legal Liability Reporting                               D
 11-09    Accrued Payroll and Unfunded Leave Accrual (Military)   D
 11-10    Accrued Payroll and Unfunded Leave Accrual                                    11-02
 11-11    Financial Reporting Process                             A
 11-12    Accounts Payable Accrual                                D
 11-13    Financial Disclosure Reports                                                  11-03
 11-14    Purchase Requests/Commitments                           E
 11-15    Accounts Receivable                                     A
 11-16    Operating Materials and Supplies                                             11-04
 11-17    PP&E Non-CIP Assets                                     C
 11-18    Federal Managers’ Financial Integrity Act of 1982                      J
 11-19    PP&E Asset Records                                      C
 11-20    Human Resources Compliance with Laws and Regulations                          11-05
 11-21    Intragovernmental Transactions and Balances             A
 11-22    PP&E: Repairables                                       C
 11-23    PP&E: CIP                                               C
 11-24    Actuarial Medical Liabilities                                                 11-06
 11-25    Federal Managers’ Financial Integrity Act of 1996                      K
 11-26    PP&E: 4th Quarter Site Visit Observations               C




                                                        6

                                                                                                               Appendix A
                                              U.S. Coast Guard
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              7

                                                                                                 Appendix B
                                               U.S. Coast Guard
                                           Status of Prior Year NFRs
                                              September 30, 2011




                                                                                       Disposition1
                                                                                             Repeat
NFR No.                                   Description                        Closed2
                                                                                         (2011 NFR No.)
 10-01    Heritage Assets                                                                  USCG 11-02
 10-02    Purchase Requests/Commitments                                                   USCG 11-14
 10-03    Statement of Net Cost                                                           USCG 11-04
 10-04    Contracting Officer Warrant Authority                                X
 10-05    Environmental Liabilities                                                       USCG 11-01
 10-06    PP&E Non-CIP Assets                                                             USCG 11-17
 10-07    Vessels and Small Boats Useful Lives                                 X
 10-08    FFMIA                                                                           USCG 11-25
 10-09    Cumulative Results of Operations                                                USCG 11-06
 10-10    Financial Disclosure Reports                                                    USCG 11-13
 10-11    PP&E Asset Records                                                              USCG 11-19
 10-12    Legal Liability Reporting                                                       USCG 11-08
 10-13    Actuarial Post Employment Travel Liability                           X
 10-14    PP&E: Repairables                                                               USCG 11-22
 10-15    Intragovernmental Transactions and Balances                                     USCG 11-21
 10-16    PP&E: Fourth Quarter Site Visit Observations                                    USCG 11-26
 10-17    PP&E Construction in Progress                                                   USCG 11-23
 10-18    Financial Management Oversight                                                  USCG 11-03
 10-19    Permanent Change of Station – Separation/Retirement Presentation     X
 10-20    FBWT – Reconciliations                                                          USCG 11-05
 10-21    Suspense Accounts                                                    X
 10-22    Accrued Payroll and Unfunded Leave Accrual (Military)                           USCG 11-09
 10-23    Operating Materials and Supplies                                                USCG 11-16
 10-24    Accrued Payroll and Unfunded Leave Accrual                                      USCG 11-10
 10-25    FY 2010 Actuarial Liabilities Restatement                            X
 10-26    Accounts Payable Accrual                                                        USCG 11-12
 10-27    Undelivered Orders                                                              USCG 11-07
 10-28    Financial Reporting Process                                                     USCG 11-11
 10-29    Federal Managers’ Financial Integrity Act                                       USCG 11-18
 10-30    Actuarial Medical Liabilities                                                   USCG 11-24
 10-31    Accounts Receivable                                                             USCG 11-15
 10-32    FBWT and Unexpended Appropriations                                   X




                                                         8

                                                                                                                   Appendix B
                                                     U.S. Coast Guard
                                                 Status of Prior Year NFRs
                                                    September 30, 2011



1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                9

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      U.S. Coast Guard

                      Chief Financial Officer
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
